TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Insufficient Attention Has Been Given to
                 Ensure States Protect Taxpayer Information



                                         August 31, 2007

                              Reference Number: 2007-20-134




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               August 31, 2007


 MEMORANDUM FOR CHIEF, MISSION ASSURANCE AND SECURITY SERVICES

 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Insufficient Attention Has Been Given to Ensure
                              States Protect Taxpayer Information (Audit # 200720025)

 This report presents the results of our followup review to determine whether Federal tax
 information provided to third parties (in this case, State agencies) is protected from unauthorized
 access, use, and disclosure. We evaluated the effectiveness of the Internal Revenue Service’s
 (IRS) actions to correct computer security weaknesses at State agencies that we had reported in
 September 2005.1 This audit is part of the statutory audit coverage under our Information
 Systems Programs unit and is included in the Treasury Inspector General for Tax
 Administration’s Fiscal Year 2007 Annual Audit Plan.

 Impact on the Taxpayer
 The IRS provides taxpayers’ personal and financial data to agencies in all 50 States to assist
 them in carrying out their own tax administration responsibilities. The IRS Safeguard Review
 program is responsible for ensuring the States provide adequate security over that information to
 prevent unauthorized disclosures that could be used for identity theft and other fraudulent
 activities. Without an effective Safeguard Review program, the IRS has little assurance the
 information provided to the States is adequately protected and funds are prudently spent on
 contractor support.




 1
  Increased IRS Oversight of State Agencies Is Needed to Ensure Federal Tax Information Is Protected (Reference
 Number 2005-20-184, dated September 2005).
                         Insufficient Attention Has Been Given to Ensure States
                                       Protect Taxpayer Information




Synopsis
As a result of our 2005 review of the Safeguard Review program, the IRS agreed to:
    •   Revise guidance to States found in Tax Information Security Guidelines for Federal,
        State and Local Agencies and Entities (Publication 1075) for conducting their security
        self-assessments to incorporate the recommended security controls described in the
        National Institute of Standards and Technology (NIST)2 guidance required for all Federal
        Government agencies.
    •   Assign more staffing to the Mission Assurance and Security Services organization’s
        Safeguard Review program to provide adequate oversight to the States.
    •   Improve the scope of IRS Safeguard Reviews by incorporating appropriate NIST
        guidance into the computer security Safeguard Review process.
    •   Use Plans of Action and Milestones to better monitor recommended corrective actions for
        weaknesses identified.
Since our 2005 review, the IRS has revised guidance to the States to incorporate the
recommended security controls described by the NIST. We anticipate the guidance will assist
the State agencies in performing more complete security assessments of their computer systems.
To improve the Safeguard Reviews, the IRS awarded a 5-year contract to Booz Allen Hamilton
to supplement the Safeguards Review staff in conducting more reviews. However, the other
corrective actions to our prior report have not yet been taken or have not been effective to
improve the scope of the Safeguard Reviews and to monitor corrective actions. Also, the IRS is
not timely reporting the results of its Safeguard Reviews to the States. We attribute these
weaknesses to the lack of management oversight.
During the course of our review, we became very concerned at the lack of management attention
being directed to the Safeguard Review program. As a result, we expanded our review to assess
the administration of the contract with Booz Allen Hamilton. Controls over the contract were
insufficient to ensure the Federal Government receives the services for which it contracted, on
time, and in accordance with specifications. Additional oversight for the contract is needed so
the IRS can ensure it is prudently spending the $1.4 million designated annually for the
Safeguard Review program. Due to the poor contract oversight provided by the IRS, we
requested additional documentation from the contractor. We will report our assessment of the
contractor documentation in a future Office of Audit document.



2
 The NIST is responsible for developing standards and guidelines for providing adequate information security for
all Federal Government agency operations and assets.
                                                                                                                   2
                             Insufficient Attention Has Been Given to Ensure States
                                           Protect Taxpayer Information



In July 2007, the IRS Mission Assurance and Security Services organization was realigned and
the responsibilities for the Safeguard Review program were transferred to the Small
Business/Self-Employed Division. While the Small Business/Self-Employed Division has taken
the responsibility of responding to the recommendations in this report, we are issuing the report
to the Chief, Mission Assurance and Security Services, at his request.

Recommendations
We recommended the Chief, Mission Assurance and Security Services, provide management
oversight for the Safeguard Review program sufficient to ensure test plans used during
Safeguard Reviews are revised and consistent with IRS guidance, the corrective action to our
prior report is reopened to ensure the development and implementation of a Plan of Action and
Milestones process, Safeguard Review results are provided timely to the States, task orders3
clearly define deliverables for the contractor, and contractor billings are monitored to ensure
funds are prudently spent.

Response
IRS management agreed with all of our recommendations. The Director, Communications,
Liaison and Disclosure, Small Business/Self-Employed Division, will initiate additional changes
to the recently revised Publication 1075 to incorporate guidance for executing test plans used in
Safeguard Reviews. The corrective action corresponding to the followup and monitoring of
corrective actions will be reopened, and a Plan of Action and Milestones process will be
developed. Also, Safeguard Review results will be provided to the States within 30 calendar
days of the review, but not later than 45 calendar days after the closing conference, in accordance
with IRS procedures. A monthly monitoring plan will be developed to track reports and ensure
followup actions have been taken on a timely basis.
The Small Business/Self-Employed Division has assigned a task representative to work with the
Contracting Officer’s Technical Representative and manage all aspects of contract support. The
task representative will oversee the contractors’ work and perform monthly contract reviews to
ensure the accuracy of the invoices and that work authorized is completed in accordance with the
work requests. Work requests will be signed by the task representative, the Contracting Officer’s
Technical Representative, and the contractor manager prior to starting work and upon
completion of the task. In addition, a project manager has been added to the Safeguards Review
staff to provide guidance, oversight, and monitoring of the program contract. Management’s
complete response to the draft report is included as Appendix IV.


3
    A task order is an order for services placed against an established contract.


                                                                                                  3
                    Insufficient Attention Has Been Given to Ensure States
                                  Protect Taxpayer Information



Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs), at
(202) 622-8510.




                                                                                             4
                             Insufficient Attention Has Been Given to Ensure States
                                           Protect Taxpayer Information




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Actions Have Been Taken to Improve the Scope of State Safeguard
          Activity Reports ............................................................................................Page 3
          Adequate Actions Have Not Been Taken to Improve Internal Revenue
          Service Safeguard Reviews...........................................................................Page 3
                    Recommendation 1:..........................................................Page 5

                    Recommendations 2 and 3: ................................................Page 6

          The Office of Privacy and Information Protection Is Not Adequately
          Monitoring Contracting Actions ...................................................................Page 6
                    Recommendation 4:..........................................................Page 7

                    Recommendation 5:..........................................................Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 11
          Appendix III – Report Distribution List .......................................................Page 12
          Appendix IV – Management’s Response to the Draft Report ......................Page 13
       Insufficient Attention Has Been Given to Ensure States
                     Protect Taxpayer Information




                   Abbreviations

IRS          Internal Revenue Service
NIST         National Institute of Standards and Technology
                         Insufficient Attention Has Been Given to Ensure States
                                       Protect Taxpayer Information




                                           Background

Internal Revenue Code Section 6103 authorizes the
Internal Revenue Service (IRS) to disclose Federal tax
information to various State and Federal Government                    The Safeguard Review program
agencies. In 2005, the IRS provided taxpayer                            should ensure State agencies
information to all 50 States, whose tax agencies can use                    receiving Federal tax
                                                                       information maintain adequate
the information to identify nonfilers of State tax returns,            safeguards to protect the data.
determine discrepancies in the reporting of income,
locate delinquent taxpayers, and determine whether IRS
adjustments have State tax consequences.
As a condition for receiving Federal tax information, State tax agencies must have physical and
computer system safeguards designed to prevent unauthorized accesses and use of this
information. Before a State tax agency receives Federal tax information, it must submit a
Safeguard Procedures Report to the IRS for approval. The Safeguard Procedures Report
describes how the State will protect and safeguard the tax information. In addition, States are
required to annually file Safeguard Activity Reports to describe any changes to their safeguard
procedures, advise the IRS of future actions that will affect safeguard procedures, and certify
they are protecting the data.
The Safeguard Review program within the Office of Privacy and Information Protection in the
Mission Assurance and Security Services organization should ensure State agencies receiving
Federal tax information maintain adequate safeguards to protect the data. It is responsible for
conducting Safeguard Reviews of each State agency receiving Federal tax information at least
once every 3 years. The Safeguard Reviews should evaluate the State agencies’ compliance with
security procedures to ensure the information is adequately protected.
In 2003, we reported1 that Federal tax information was at risk while in the possession of State tax
agencies. In 2005, we followed up2 on the 2003 report and determined these problems persisted.
We also noted that State agencies’ Safeguard Activity Reports were not effective because they
did not adequately test security controls. In addition, IRS Safeguard Reviews were not effective
because adequate staffing had not been assigned to conduct a sufficient number of reviews, the
scope of reviews was insufficient, and the IRS did not have an adequate process to track
corrective actions on weaknesses identified.


1
  Computer Security Weaknesses at State Agencies Put Federal Tax Information at Risk (Reference
Number 2003-20-064, dated February 2003).
2
  Increased IRS Oversight of State Agencies Is Needed to Ensure Federal Tax Information Is Protected (Reference
Number 2005-20-184, dated September 2005).
                                                                                                         Page 1
                     Insufficient Attention Has Been Given to Ensure States
                                   Protect Taxpayer Information



During the review, the Mission Assurance and Security Services organization was realigned.
The responsibility for the Safeguard Review program was transferred to the
Small Business/Self-Employed Division in July 2007.
To follow up on the IRS’ actions to correct these conditions, we conducted this review at the
Office of the Chief, Mission Assurance and Security Services, in Washington, D.C., during the
period December 2006 through May 2007. The audit was conducted in accordance with
Government Auditing Standards. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                        Page 2
                         Insufficient Attention Has Been Given to Ensure States
                                       Protect Taxpayer Information




                                      Results of Review

Actions Have Been Taken to Improve the Scope of State Safeguard
Activity Reports
In 2005, we reported significant control weaknesses at the States we reviewed and determined
the States were not conducting adequate self-assessments of their security controls. We
recommended the IRS revise Tax Information Security Guidelines for Federal, State and Local
Agencies and Entities (Publication 1075) to incorporate the security controls described in the
National Institute of Standards and Technology (NIST)3 Recommended Security Controls for
Federal Information Systems (Special Publication 800-53). This NIST document must be
followed by Federal Government agencies, and the NIST encourages its use by other
organizations.
In response to our report, the IRS agreed to revise Publication 1075 and issued the revision in
February 2007. We compared Publication 1075 to NIST Special Publication 800-53 and
determined it did address the necessary security controls. We anticipate the revised
Publication 1075 will provide guidance for the State agencies to perform more complete security
assessments of their computer systems.

Adequate Actions Have Not Been Taken to Improve Internal Revenue
Service Safeguard Reviews
In 2005, we reported that the IRS Safeguard Reviews were inadequate and incomplete. We
recommended and the IRS agreed to take the following actions to improve its Safeguard Reviews
of the States:
    •   Assign more staffing to the Mission Assurance and Security Services organization’s
        Safeguard Review program to provide adequate oversight to the States.
    •   Improve the scope of IRS Safeguard Reviews by incorporating appropriate NIST Special
        Publication 800-53 security controls into the computer security Safeguard Review
        process.
    •   Use Plans of Action and Milestones to better monitor recommended corrective actions for
        weaknesses identified.


3
 The NIST is responsible for developing standards and guidelines for providing adequate information security for
all Federal Government agency operations and assets.
                                                                                                          Page 3
                      Insufficient Attention Has Been Given to Ensure States
                                    Protect Taxpayer Information



In response to our recommendation to assign additional staffing, the Office of Privacy and
Information Protection awarded a 5-year contract in May 2006 to Booz Allen Hamilton to
supplement the Safeguards Review staff and help meet its requirements to conduct the
appropriate number of Safeguard Reviews each year. During Fiscal Years 2005 and 2006, the
IRS, with assistance from the contractor, conducted 152 Safeguard Reviews of State agencies
receiving Federal tax information. The additional resources provided by the contractor have had
a positive impact on the number of Safeguard Reviews conducted of State agencies.
The IRS has not taken sufficient actions in response to our recommendation to improve the scope
of the Safeguard Reviews. Language included in the contract with Booz Allen Hamilton
required the contractor to update Safeguard Review test plans and customize them as needed,
depending on the operating systems used by the States. However, the contract does not define
how the test plans are to be updated, specifically that they should incorporate the NIST Special
Publication 800-53 security controls.
Additionally, the number of test plans to be updated or customized is not defined in the contract.
While the contractor has revised test plans for six operating systems to include many of the
control areas described in NIST Special Publication 800-53, these test plans are still in draft form
and are currently not being used. When asked, IRS management stated they did not know when
the contractor was scheduled to complete the revision of these 6 and the remaining 16 test plans
or when they would be available for use.
The Safeguard Reviews conducted in Fiscal Years 2006 and 2007 followed the test plans used
prior to our 2005 audit. These plans did not adequately address tests for some of the controls
included in NIST Special Publication 800-53, such as incident response, risk assessments, and
contingency planning. Until these documents are updated and followed by contractors
conducting the tests, the IRS will not be assured that States are adequately protecting Federal tax
information. The corrective actions associated with our recommendation are due to be
completed in October 2008.
In response to our recommendation to use Plans of Action and Milestones, the IRS agreed to
implement this process by August 2006. In May 2006, the IRS formally closed the
recommendation by stating it had implemented the process. During this review, we determined
the IRS has not implemented the use of Plans of Action and Milestones and still does not have a
process to monitor security weaknesses identified during Safeguard Reviews. Management in
the Office of Privacy and Information Protection stated that an automated Plan of Action and
Milestones tool is under development by the contractor, but a delivery date was unknown. When
asked, the IRS could provide no explanation as to why it had stated its actions to implement the
Plans of Action and Milestones process were completed in May 2006.
Without a formalized process, the States are not held accountable for addressing weaknesses
found during their tests and the tests conducted by the Mission Assurance and Security Services


                                                                                             Page 4
                     Insufficient Attention Has Been Given to Ensure States
                                   Protect Taxpayer Information



organization. As a result, the IRS cannot be certain that deficiencies found during Safeguard
Reviews are timely and efficiently corrected.
Also, the IRS was not timely reporting the results of its Safeguard Reviews to the States. IRS
procedures state Safeguard Review reports should be provided to State agencies within
30 calendar days of the review but not later than 45 calendar days after the closing conference.
For 2006 and 2007, we reviewed all 18 Safeguard Review reports issued to State tax agencies
and determined these reports were issued an average of 81 calendar days after completion of
onsite reviews. With these delays, security weaknesses identified in Safeguard Reviews may go
unaddressed for months, increasing the risk that Federal tax information may be inappropriately
accessed or used.
Security weaknesses at the States could provide opportunities for hackers, disgruntled
employees, and contractors to access Federal tax information for unauthorized use and identity
theft purposes. Without an adequate Safeguard Review program, the IRS has little assurance that
States are maintaining adequate controls over Federal tax information.
We attribute the inability to improve the IRS Safeguard Review program to a lack of
management attention and oversight. While sufficient funding has been provided to increase the
number of reviews conducted, little emphasis has been placed on enhancing the scope of the
reviews, ensuring actions to improve security vulnerabilities are monitored, and ensuring review
results are reported timely. Also, IRS employees and contractors were being provided little
direction, their work was not being adequately monitored, and desk procedures were not
available.

Recommendations
To address these weaknesses, the Chief, Mission Assurance and Security Services, should
provide management oversight for the Safeguard Review program sufficient to ensure:
Recommendation 1: The test plans used during Safeguard Reviews are revised and
consistent with the guidance found in IRS Publication 1075.
       Management’s Response: Management agreed with the recommendation. At this
       time, the contractor has revised most of the Safeguard Computer Security Evaluation
       Matrices, making them consistent with the requirements of NlST Special
       Publication 800-53. Communications are pending to all agencies advising them that they
       will be held to the new standards effective October 1, 2007. The Director,
       Communications, Liaison and Disclosure, Small Business/Self-Employed Division, will
       initiate additional changes to the guidance provided in the recently revised
       Publication 1075 (dated February 2007) to stagger reporting deadlines for Safeguard
       Activity Reports, as well as incorporate additional guidance for executing test plans used
       in Safeguard Reviews.

                                                                                            Page 5
                             Insufficient Attention Has Been Given to Ensure States
                                           Protect Taxpayer Information



Recommendation 2: The corrective action corresponding to the followup and monitoring of
corrective actions is reopened, and a Plan of Action and Milestones process is developed and
implemented.
           Management’s Response: Management agreed with the recommendation. The
           corrective action corresponding to the followup and monitoring of corrective actions will
           be reopened and a Plan of Action and Milestones process will be developed. The
           majority of development work on the newly designed automated Plan of Action and
           Milestones monitoring tool has been completed by the contractor.
Recommendation 3: The Safeguard Review results are provided timely to the States.
           Management’s Response: Management agreed with the recommendation.
           Safeguard Review results will be provided to the States within 30 calendar days of the
           review, but not later than 45 calendar days after the closing conference, in accordance
           with IRS procedures. Management will develop a monthly monitoring plan to track
           reports and ensure followup actions have been taken on a timely basis.

The Office of Privacy and Information Protection Is Not Adequately
Monitoring Contracting Actions
During the course of our review, we became very concerned at the lack of management attention
being directed to the Safeguard Review program. As a result, we expanded our review to assess
the administration of the contract with Booz Allen Hamilton. IRS procedures state the purpose
of contract administration is to ensure the Federal Government receives the services for which it
contracted, on time, and in accordance with specifications.
The IRS has budgeted $1.4 million annually for contractor support of the Safeguard Review
program. However, the Office of Privacy and Information Protection is not providing sufficient
oversight for the use of these funds and the contractor’s actions. Specifically:
       •   In January 2007, task orders4 for Safeguard Review site visits performed as far back as
           June 2006 were signed after the fact by the Mission Assurance and Security Services
           organization and approved by the Contracting Officer’s Technical Representative. We
           were advised that the contractor, not the IRS, requested the task orders.
       •   The task orders described above listed “TBD” (To Be Determined) for the number of
           estimated hours needed to establish and manage a Program Office to administer the
           contract and to perform Safeguard Reviews.
       •   Three of the eight contractor payment vouchers were not authorized in writing by
           Mission Assurance and Security Services organization management.

4
    A task order is an order for services placed against an established contract.
                                                                                              Page 6
                     Insufficient Attention Has Been Given to Ensure States
                                   Protect Taxpayer Information



   •   The IRS does not have a process in place to collect data needed to perform a validation of
       the hours billed by the contractor. Without an effective process to collect such data, the
       IRS is forced to rely on data the contractor provides. The IRS has received monthly
       reports from the contractor detailing the number of hours charged to each task order.
       However, these reports do not specify how many hours were charged to specific tasks,
       such as a site visit or revision of test plans.
   •   Contract language is vague regarding deliverables expected by the IRS. The only
       deliverable described in the contract is the Safeguard Review reports. Consequently,
       there is no expectation regarding the development and maintenance of workpapers
       supporting the work performed during a Safeguard Review. Our examination of the
       workpaper files for reviews conducted in 2006 and 2007 determined the files were
       incomplete and disorganized. Files for 9 of the 28 reviews we attempted to find were
       missing, and files for 10 other reviews were missing significant documentation such as
       review plans, minutes from opening and closing conferences for site reviews, and the
       most recent Safeguard Activity Reports from the State agency. As a result, the IRS
       acknowledged it had no way to gauge the adequacy of work performed by the contractor.
Essentially, the IRS is allowing the contractor to dictate the terms of the contract and to
determine the amount of funds spent. When asked how oversight is provided to the contractor,
IRS management responded that the contractor is trusted and its employees are professionals.
Without adequate oversight for contracting actions, the IRS cannot ensure it is prudently
spending the $1.4 million designated for the Safeguard Review program. Due to the poor
contract oversight provided by the IRS, we requested additional documentation from the
contractor and are continuing to review that documentation. We will report our assessment of
the contractor documentation in a future Office of Audit document.

Recommendations
To address these weaknesses, the Chief, Mission Assurance and Security Services, should
provide executive and management oversight for the Safeguard Review program sufficient to
ensure:
Recommendation 4: Task orders clearly define the staff hours needed per task and the
contractor deliverables for the remaining years of the Safeguard Review program contract.
       Management’s Response: Management agreed with the recommendation. The
       Small Business/Self-Employed Division has assigned a task representative to work with
       the Contracting Officer’s Technical Representative and manage all aspects of contract
       support. This task representative will ensure work requests are written for each task area
       and clearly define 1) the description of the work to be performed in accordance with the
       statement of work; 2) skill categories and estimated hours per category; 3) required

                                                                                            Page 7
                    Insufficient Attention Has Been Given to Ensure States
                                  Protect Taxpayer Information



      products, due dates, and specific acceptance criteria; 4) performance site; and 5) any
      additional Federal Government-furnished equipment the contractor may need to complete
      the task. Work requests will be signed by the task representative, the Contracting
      Officer’s Technical Representative, and the contractor manager prior to starting work and
      upon completion of the task. Six key work requests have been identified and will be
      focused on through December 31, 2007. In addition, a project manager has been added to
      the Safeguards Review staff to provide guidance, oversight, and monitoring of the
      program contract.
Recommendation 5: Contractor billings are monitored, and contract hours allocated by task
are validated to ensure funds are prudently spent.
      Management’s Response: Management agreed with the recommendation. The
      Small Business/Self-Employed Division will ensure contractors report hours charged to
      the contract by task area. Management will ensure a work request is in place for each
      task area. The assigned dedicated task representative will oversee the contractor’s work
      and perform monthly contract reviews to ensure the accuracy of the invoices and that
      work authorized is completed in accordance with the work requests. During the contract
      review, the task representative will review the following contractor-prepared reports prior
      to their review and approval by the Contracting Officer’s Technical Representative:
      1) Monthly Status Reports that document work performed and labor hours spent by task
      area, 2) work requests, and 3) invoices. Issues, if any, will be elevated to the Contracting
      Officer’s Technical Representative to be addressed with the contractor.




                                                                                           Page 8
                         Insufficient Attention Has Been Given to Ensure States
                                       Protect Taxpayer Information



                                                                                                 Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this audit was to determine whether Federal tax information provided to
third parties (in this case, State agencies) is protected from unauthorized access, use, and
disclosure. To accomplish this objective, we conducted followup tests to evaluate the
effectiveness of the IRS’ actions to correct computer security weaknesses at State agencies we
had reported in September 2005.1 Specifically, we:
I.      Assessed the adequacy of the IRS Safeguard Review process.
        A. Reviewed documentation to determine the adequacy of the scope of IRS Safeguard
           Reviews conducted in Fiscal Years 2006 and 2007 at State tax agencies.
             1. Determined whether Tax Information Security Guidelines for Federal, State and
                Local Agencies and Entities (IRS Publication 1075) had been revised to
                incorporate the recommended security controls described in NIST2 Recommended
                Security Controls for Federal Information Systems (Special Publication 800-53).
             2. Reviewed all Safeguard Review Reports issued to State tax agencies during Fiscal
                Years 2006 and 2007 to determine adequacy of the scope of review.
             3. Reviewed all available Safeguard Review files for reviews conducted at State tax
                agencies in Fiscal Years 2006 and 2007 to determine adequacy of supporting
                documentation.
             4. Reviewed the test plans developed by contractor Booz Allen Hamilton and used
                in the Safeguard Reviews to determine whether the plans include the required
                security controls for a moderate risk control baseline listed in NIST Special
                Publication 800-53.
             5. Determined whether adequate oversight was provided to the Booz Allen Hamilton
                contract employees while they developed the revised test plans.
             6. Determined whether the States submitted self-assessments to the IRS and whether
                these assessments were used in determining/customizing the scope of the
                Safeguard Reviews.


1
  Increased IRS Oversight of State Agencies Is Needed to Ensure Federal Tax Information Is Protected (Reference
Number 2005-20-184, dated September 2005).
2
  The NIST is responsible for developing standards and guidelines for providing adequate information security for
all Federal Government agency operations and assets.
                                                                                                           Page 9
                         Insufficient Attention Has Been Given to Ensure States
                                       Protect Taxpayer Information



        B. Reviewed documentation to determine whether the IRS is providing timely results of
           the Safeguard Reviews to the State agencies.
        C. Reviewed documentation to determine whether the process developed in May 2006
           for implementing a Plan of Action and Milestones3 to manage recommended
           corrective actions has been implemented.
II.     Reviewed contract and process documentation to determine whether the Safeguard
        Review process has sufficient resources to complete the required number of Reviews.
        A. Reviewed contract documentation, including task orders,4 for Safeguard Reviews
           performed by Booz Allen Hamilton employees to determine whether:
             1. An adequate number of staff resources with appropriate technical expertise were
                detailed in contract language.
             2. The actual funding for both the IRS and the contractor staffs have been increased
                appropriately.
        B. Determined whether the schedule in place to accomplish these Reviews was
           consistent with the staffing resources available.
        C. Determined whether the Reviews of State agencies are performed at least once every
           3 years, as required by Internal Revenue Code Section 6103.
III.    Determined whether IRS management oversight for the Booz Allen Hamilton contract
        was adequate.
        A. For the Fiscal Year 2007 Safeguard Reviews, determined the staff hours by skill/labor
           category (such as Senior Information Technology Specialist, Junior Information
           Technology Specialist) planned for Booz Allen Hamilton staff support.
        B. Determined the procedures in place for the IRS Office of Privacy and Information
           Protection to evaluate the accuracy of the staff hours billed monthly by Booz Allen
           Hamilton.
        C. Obtained the monthly billing vouchers submitted by Booz Allen Hamilton and
           reviewed to ensure appropriate approvals were obtained.
        D. For the Fiscal Year 2007 schedule, determined whether Booz Allen Hamilton
           monthly billing vouchers reconciled with the number of Booz Allen Hamilton
           staff hours provided during fieldwork.


3
  The NIST defines a Plan of Action and Milestones as a plan developed to prioritize identified weaknesses and
assign dates for remediation.
4
  A task order is an order for services placed against an established contract.
                                                                                                          Page 10
                    Insufficient Attention Has Been Given to Ensure States
                                  Protect Taxpayer Information



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Stephen R. Mullins, Director
Marybeth H. Schumann, Audit Manager
Myron L. Gulley, Lead Auditor
Richard T. Borst, Senior Auditor
Abraham B. Millado, Senior Auditor
Thomas P. Nacinovich, Senior Auditor
Joan M. Raniolo, Senior Auditor
William Simmons, Senior Auditor
Esther M. Wilson, Senior Auditor




                                                                                     Page 11
                   Insufficient Attention Has Been Given to Ensure States
                                 Protect Taxpayer Information



                                                                 Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Operations Support OS
Commissioner, Small Business/Self-Employed Division SE:S
Chief Information Officer OS:CIO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed SE:S
       Chief Information Officer OS:CIO




                                                                        Page 12
      Insufficient Attention Has Been Given to Ensure States
                    Protect Taxpayer Information



                                                    Appendix IV

Management’s Response to the Draft Report




                                                           Page 13
Insufficient Attention Has Been Given to Ensure States
              Protect Taxpayer Information




                                                     Page 14
Insufficient Attention Has Been Given to Ensure States
              Protect Taxpayer Information




                                                     Page 15
Insufficient Attention Has Been Given to Ensure States
              Protect Taxpayer Information




                                                     Page 16
Insufficient Attention Has Been Given to Ensure States
              Protect Taxpayer Information




                                                     Page 17
Insufficient Attention Has Been Given to Ensure States
              Protect Taxpayer Information




                                                     Page 18
